         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Solar Technology Pathway
Partnerships Cooperative
Agreements




OAS-M-11-02                          March 2011
                                 Department of Energy
                                   Washington, DC 20585
                                        March 22, 2011


MEMORANDUM FOR THE ACTING DEPUTY ASSISTANT SECRETARY FOR
                      RENEWABLE ENERGY
                  ACTING DIRECTOR FOR OFFICE OF PROCUREMENT AND
                      ASSISTANCE POLICY


FROM:                    George W. Collard
                         Assistant Inspector General
                            for Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Solar Technology Pathway
                         Partnerships Cooperative Agreements"

BACKGROUND:

 The Department of Energy's (Department) Office of Energy Efficiency and Renewable Energy
established the Solar Technology Pathway Partnerships (Solar TPP) program as part of an effort
to make solar energy cost-competitive with conventional forms of electricity by 2015. The
program focused on new solar energy photovoltaic systems. To implement the program, the
Department, beginning in 2007, established cooperative agreements with 12 for-profit financial
assistance recipients who in turn established partnerships with universities, non-profit
organizations, and the Department's national laboratories. To date, cooperative agreements with
9 of the 12 original recipients remain active. Of the three cooperative agreements that had been
discontinued, two were terminated due to concerns about their viability and the other recipient
withdrew before beginning work.

As of June 2010, the Department reimbursed about $120 million in costs incurred by the 11
recipients that had begun work, just over 80 percent of total program awards of $147 million
(Attachment 3). The Department reported that it was responsible for financial oversight,
including review of indirect cost proposals and implementation of audit requirements, for 7 of
the 11 recipients. Because they provided the majority of funding, financial oversight of the
remaining four recipients was assumed by other Federal agencies. Due to the size of Solar TPP
awards and the importance of the program to achieving national energy goals, we initiated this
audit to determine if the Department had effectively managed the program's award, technical
monitoring and cost reporting processes.

OBSERVATIONS AND CONCLUSIONS

We noted that the Department had developed and implemented controls designed to ensure that
Solar TPP projects were awarded in compliance with applicable regulations and that the projects
were making adequate technical progress. Our testing, however, revealed that the Department's
financial monitoring of the $120 million expended for these projects was not always adequate.
Specifically, the Department had neither ensured that recipients complied with audit
requirements nor had it requested audits of costs incurred by recipients.

                           Award Selection and Technical Monitoring

Our testing did not reveal problems with the selection of recipients or with the process designed
to ensure projects made adequate technical progress. With respect to award selection, awards
that met basic requirements included in the Funding Opportunity Announcement were forwarded
to a 36 member Merit Review Committee for review and consideration. Reviewers, divided into
seven subpanels based on areas of technical expertise, independently evaluated applications
against criteria outlined in the Funding Opportunity Announcement. Each subpanel evaluated
strengths and weaknesses, developed a consensus score for each application, and then submitted
their recommendations to the Selection Official who considered these recommendations when
making final award decisions.

After award recipients had been selected, the Department established a "stage gate" review
process to ensure projects met interim performance goals. The Department based continuation of
projects on successful completion of those goals. As part of the "stage gate" process, the
Department convened review committees composed of independent subject matter experts to
conduct on-site visits to review a project's status and accomplishments. The committees
analyzed the development of the particular technology and the recipient's plan to commercialize
it. "Stage gate" reviews also included evaluation of the efficiencies that could be achieved by the
solar photovoltaic system under development, including independent verification of the system's
estimated cost per kilowatt hour. While these controls appeared to be sufficient for the award
and technical review aspects of the projects, controls over financial activity of award recipients
as explained in the following paragraphs, was not sufficient.

                                       Financial Oversight

Even though the Solar TPP program had expended approximately $120 million as of June 30,
2010, the Department had not:

    •    Ensured that recipients had independent audits of their internal control structures and
         their compliance with applicable laws and regulations as required by Federal
         regulations (10 CFR 600.316). The Department had neither obtained nor reviewed
         such audits for the seven recipients for which it was responsible since the inception of
         the program in 2007. Additionally, the Department had not obtained the results of any
         audits of the four recipients overseen by other Federal agencies. Further, the
         Department had not established a process to track, collect, review and follow-up on
         required audits. Department officials acknowledged that they were unaware of whether
         any of the recipients had received independent audits. Under Federal regulations,
         for-profit financial assistance recipients are required to obtain an independent audit
         each year they spend more than $500,000 in Federal awards. The audits must
         determine and report on whether recipients have internal control structures in place that



                                                2
         provide reasonable assurance that they have complied with Federal regulations and the
         terms and conditions of the awards. The audits must include testing a sample of
         Federal award expenditures.

    •    Obtained and reviewed recipients' cost reports to determine the allowability of costs as
         required by Federal regulations (10 CFR 600.317). Under the terms and conditions of
         the cooperative agreements, recipients are required to submit annual cost reports to the
         responsible Federal agency to support incurred costs. However, as of June 2010, the
         Department had not received any cost reports from three of the seven recipients for
         which it was responsible and had received, but not reviewed, cost reports submitted by
         the other four recipients. In addition, the Department had not obtained any information
         on cost reports for the four recipients overseen by other Federal agencies. Finally, the
         program had not established an effective system for tracking the receipt and review of
         annual incurred cost reports.

    •    Requested that the Defense Contract Audit Agency (DCAA) conduct cost allowability
         audits for any of the seven recipients for which it was responsible and had not ensured
         that the responsible agencies for four other recipients had arranged for audits, this
         despite the fact that program officials told us they typically rely on such audits to
         determine allowability of costs incurred. According to Department officials, none of
         the $120 million expended by the recipients as of June 30, 2010, had been audited by
         DCAA.

Department officials began gathering reports and requesting audits when we brought the lack of
financial oversight to their attention. As of December 2010, the Department had requested that
DCAA audit all recipients for which it was responsible.

                                       Program Guidance

Problems with financial monitoring were caused by insufficient Departmental guidance
concerning audits of for-profit organizations receiving financial assistance. While there is
existing guidance on audit requirements for Federal assistance to states, local governments and
non-profit entities, such guidance does not exist for for-profit entities. For example, the
Department's Guide to Financial Assistance (the Guide) describes in detail the Department's
processes for tracking, collecting, reviewing and following up on audits of states, local
governments, and non-profit entities; however, the Guide is silent on audits of for-profit
organizations required under 10 CFR 600.316. Additionally, although the cooperative
agreements referenced the Federal regulations, they did not specifically explain the audit
requirement, provide guidance about how the audits are to be conducted, or include the audits in
the checklist of required documentation to be submitted by recipients. Program officials
acknowledged that they had not required recipients to conduct internal control and compliance
audits, citing the lack of guidance.

Program officials also stated their belief that DCAA audits of costs incurred provided similar
benefits to the annual internal control and compliance audit requirement and met their financial
oversight needs. However, the main focus of DCAA cost incurred audits is not on determining if


                                                3
a recipient has an internal control structure that provides reasonable assurance that it has
managed awards in compliance with Federal regulations and the terms and conditions of the
awards, as required by 10 CFR 600.316. Instead, these audits focus primarily on determining
whether expenditures are reasonable, allowable, not specifically prohibited, and thus, allowable.

                                          Program Risks

In the absence of timely financial oversight, there is an increased risk that recipients will not
have adequate controls in place to ensure compliance with applicable laws, regulations, and
award requirements. There is also an increased risk that recipients will incur unallowable or
unnecessary costs. Additionally, as we have noted in previous audits, delays in conducting
audits increase the risk that recipients will be unable to produce documentation supporting their
costs, thereby preventing costs from being audited.

As a result of the increase in financial assistance to for-profit organizations under the American
Recovery and Reinvestment Act of 2009, the Department's Office of Risk Management recently
recognized that a lack of guidance relevant to financial assistance awards to for-profit entities
existed. That office worked with the Department's Office of Procurement and Assistance Policy
and the American Institute of Certified Public Accountants to develop specific guidance for
independent auditors on conducting the audits required under 10 CFR 600.316. The Office of
Procurement and Assistance Policy released Policy Flash 2011-7 Audit Requirements for For-
Profit Recipients in October 2010, to provide interim guidance on complying with 10 CFR
600.316 and released the final guidance in Policy Flash 2011-46 U.S. Department of Energy
Audit Guidance: For-Profit Recipients and Subrecipients issued in February 2011.

RECOMMENDATIONS

Because of the importance of the Department's responsibility to ensure that financial assistance
costs are reasonable, allowable, and allocable, we recommend that the Acting Deputy Assistant
Secretary for Renewable Energy, Office of Energy Efficiency and Renewable Energy ensure that
the program manager for Solar Technology Pathway Partnerships:

   1. Clarifies financial reporting requirements in the program's cooperative agreements;

   2. Obtains, reviews, and follows-up on annual internal control and compliance audits
      required by Federal regulations; and,

   3. Develops a system to track the status and review of audits and annual incurred cost
      reports.

We also recommend that the Acting Director, Office of Procurement and Assistance Policy:

   4. Revise the Department's Guide to Financial Assistance to include guidance on
      implementation of audit requirements for for-profit entities.

We appreciate the cooperation of your staff and the various Departmental elements that provided
information or assistance.

                                                4
MANAGEMENT COMMENTS AND AUDITOR RESPONSE

The Department concurred with the findings and recommendations contained in our audit.
Specifically, management stated that it had either completed or had ongoing actions to: (1) issue
additional guidance regarding financial requirements and responsibilities; (2) enhance recipient
training; (3) develop a tracking system for pre-award and post award financial audits and annual
incurred cost reports; and, (4) monitor audit status, review audit results and implement
appropriate audit follow-up.

Management's actions are responsive to our recommendations.

Management's comments are included in their entirety in Attachment 4.

Attachments

cc:   Deputy Secretary
      Acting Under Secretary of Energy
      Associate Deputy Secretary
      Chief of Staff
      Assistant Secretary for Energy Efficiency and Renewable Energy




                                                5
                                                                                     Attachment 1
                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of our audit was to determine if the Department of Energy (Department) had
effectively managed the Solar Technology Pathway Partnerships (Solar TPP) program's award,
technical monitoring and cost reporting processes.

SCOPE

The scope of our audit included a review of the management of the Department's Solar TPP
program by Department officials. The audit was performed between November 2009 and
February 2011, at the Department's Golden Field Office in Golden, Colorado.

METHODOLOGY

To accomplish the objective, we:

    •   Obtained and reviewed Departmental and legal guidance addressing financial assistance;

    •   Reviewed pre-award, award, and "stage gate" review processes;

    •   Obtained and reviewed cost reporting documentation against requirements; and,

    •   Held discussions with Department officials managing the Solar TPP partnerships.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Because our review was limited,
it would not necessarily have disclosed all internal control deficiencies that may have existed at
the time of our audit. We also assessed performance measures in accordance with the
Government Performance and Results Act of 1993 and found that the Department has established
performance measures specifically related to the Technology Pathway Partnership program. We
did not assess the reliability of computer-processed data since we did not rely on it to accomplish
our audit objective. Department officials waived an exit conference.




                                                6
                                                                                      Attachment 2
                                     RELATED REPORTS


Office of Inspector General Reports

    •   Management Controls over the Department of Energy's Superconductivity Partnerships
        (OAS-M-07-01, January 2007). The Office of Electricity Delivery and Energy
        Reliability (Office) did not always effectively manage its financial assistance for 5 of the
        16 open Superconductivity Partnership projects funded through cooperative agreements.
        Specifically, for two projects the Office decided to concurrently fund multiple phases of
        work without assessing the financial risk should the preceding phase fail. Further,
        Federal project managers decided to continue two other projects without the benefit of a
        formal cost-benefit or market analysis, even though the industry partners requested
        termination or notified the Department of Energy's (Department) that the markets no
        longer supported the continued financial investment. Department guidance states that the
        Department has the responsibility to make sound decisions that ensure the most effective
        use of funds and to justify the rationale for those decisions.

    •   Selected Energy Efficiency and Renewable Energy Projects (DOE/IG-0689, May 2005).
        The Department's Energy Efficiency and Renewable Energy (EERE) project officials
        were not always sufficiently involved in managing projects funded by cooperative
        agreements with commercial organizations. Specifically, in some cases, the current
        Federal project officials had not reviewed the project files and had no knowledge of the
        status of a project or whether needed reviews and visits had been performed. In addition,
        two of the projects reviewed suffered from significant management problems and were
        not going to meet their objectives. EERE also did not have a system to identify high-risk
        projects which would have allowed project officials to focus their attention on those
        agreements with weaknesses rather than all agreements under their purview.




                                                 7
                                                                               Attachment 3


              Solar Technology Pathway Par tner ships Pr ojects

                                                  Awar ds      Expenditur es
                                                   As of          As of
                                                  6/30/10        6/30/10


Ongoing Par tner ships

Amonix, Inc.                                     $15,605,631    $10,809,682
The Boeing Company                                19,484,306     19,484,305
The Dow Chemical Company                           9,824,303      4,841,296
GreenRay, Inc.                                     3,333,200      2,180,239
Konarka Technologies, Inc.                         2,455,491      2,374,855
Nanosolar, Inc.                                   19,991,101     18,431,800
Soliant Energy, Inc.                               4,886,762      4,036,762
SunPower Corporation*                             24,063,015     22,782,602
United Solar Ovonic, LLC                          18,889,034     14,766,280

                                             $118,532,843      $99,707,821


Discontinued Par tner ships

BP Solar International, Inc.                     $19,414,329    $11,025,424
GE Energy (USA), LLC                               9,157,469      9,157,253
Miasolé, Inc.                                         0             0

                                                 $28,571,798    $20,182,677

Total Solar TPP Program                      $147,104,641      $119,890,498




*PowerLight was originally announced as a funds recipient but was subsequently acquired by
SunPower Corporation and funds for its partnership were merged into SunPower Corporation's
cooperative agreement.




                                             8
                      Attachment 4

MANAGEMENT COMMENTS




         9
     Attachment 4 (continued)




10
     Attachment 4 (continued)




11
                                                                   IG Report No. OAS-M-11-02

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
procedures of the inspection would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
any questions about your comments.


Name                                          Date ____________________________________

Telephone                                     Organization         ________________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                             Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
